Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




HCFA Management of Provider-Based
   Reimbursement to Hospitals




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 2000
                      OEI-04-97-00090
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, and
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta office prepared this report under the direction of Jesse J. Flowers, Regional
Inspector General and Christopher Koehler, Deputy Regional Inspector General. Principal OEI
staff included:

Joe Townsel, Project Leader
Jennifer Antico, Program Specialist
Dwayne Grant, Program Analyst
Janet Miller, Program Analyst


To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/oig/oei
                                TABLE                OF          CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


         Process inconsistently applied . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


         Data systems inadequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Improper Medicare payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


CONCLUSION AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


APPENDIX C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25





     Provider-Based Reimbursement to Hospitals                                                             OEI-04-97-00090
                             EXECUTIVE               SUMMARY

PURPOSE

      To describe Health Care Financing Administration management of provider-based status
      for hospital owned entities.

BACKGROUND

      Hospitals often purchase entities such as physician practices and nursing facilities. Under
      Medicare, such hospitals can account for their entities as free-standing or as part of the
      hospital. The latter arrangement is called “provider-based” status. In its program
      guidance, HCFA stated that provider-based status for hospital owned entities would
      increase costs for Medicare and its beneficiaries with no commensurate benefits.
      Therefore, the guidance stated that it is critical to designate only unquestionably qualified
      entities for provider-based status.

FINDINGS

      Regional offices do not consistently follow HCFA processes for review and approval
      of provider-based status

      The HCFA regions use different processes and standards, and require varying levels of
      documentation for approving provider-based status for hospital owned entities. For
      example, some regions accept hospital self-attestation that their entities meet HCFA
      criteria for provider-based status. Others, however, do a detailed review to ascertain
      qualifications for the status. Some regions obtain assistance from HCFA intermediaries
      and State licensure agencies, as required, and others do not. The inconsistencies occur
      both within and among regional offices.

      HCFA data systems are inadequate for managing hospital use of provider-based
      status

      Neither HCFA headquarters nor regional offices could furnish reliable data showing
      hospital requests or approvals for provider-based status. More importantly, HCFA could
      not determine, from existing data systems, which hospitals were improperly claiming the
      status and billing Medicare under the higher cost provider-based rules. Such basic data is
      essential for assuring that only qualified hospital owned entities are approved, and for
      identifying unqualified hospitals that bill Medicare under the provider-based rules.




  Provider-Based Reimbursement to Hospitals     1                                      OEI-04-97-00090
      Hospitals often bill for reimbursement under the provider-based rules without
      HCFA approval

      Hospitals often simply assume provider-based status for their off-site entities and bill
      Medicare without getting HCFA approval. Such practices are improper, but they often go
      undetected for several years. Further, when detected, HCFA policy guidance is widely
      interpreted as allowing only prospective payment corrections. Finally, no penalties are
      levied on hospitals who engage in the improper practice.


CONCLUSION AND RECOMMENDATIONS

      HCFA management of its provider-based determination process provides little or no
      assurance that only qualified hospital owned entities are approved. Qualified
      hospitals benefit from provider-based designations for their off-site entities because they
      can shift overhead costs to them and receive higher Medicare reimbursement. HCFA
      recognized that provider-based designations for qualified hospital owned entities would
      increase costs for Medicare and its beneficiaries, with no commensurate benefits -- as
      compared to free-standing arrangements. However, the costs are unnecessarily further
      increased when unqualified hospital owned entities bill Medicare under the financially
      advantageous provider-based rules.

      However, to assure that only qualified hospital entities receive provider-based status
      would likely require considerable resources by HCFA, its intermediaries, and State
      licensure agencies. This possibility, combined with the increased cost of qualified and
      unqualified hospitals, and no commensurate benefits for Medicare and its beneficiaries,
      raises serious questions about the merits of continuing the provider-based option for
      hospital owned entities.

      Therefore, as recommended in our prior OIG report on physician practices, we
      recommend that HCFA eliminate provider-based status as an accounting option for
      all types of hospital owned entities.

      If HCFA chooses to continue the use of provider-based status, it should

      <	        Impose severe and substantial penalties, as recommended in our prior report,
                when hospitals bill Medicare for unqualified medical entities they own.

      <         Revise and clarify its program policy and procedures.

      <         Develop reliable data systems for program management.

      <	
      <         Require that all hospitals claiming provider-based status reapply for that
                status.




  Provider-Based Reimbursement to Hospitals    2                                    OEI-04-97-00090
AGENCY COMMENTS

The Health Care Financing Administration commented on our draft report. The full text of those
comments are shown in appendix C.

In brief, HCFA did not agree with the recommendation to eliminate the provider-based program.
Instead, HCFA supported our alternative recommendation to establish reliable systems to improve
its management of the provider-based program. To that end, HCFA has initiated various actions,
including revising regulations and procedures, implementing management data and control
systems, and providing training for staff responsible for program administration and control.

The HCFA expressed concern about the administrative burden of full implementation of our
recommendation to require all hospitals claiming provider-based status to reapply so that HCFA
could assure they qualified for the benefit. Instead, HCFA plans a less burdensome, alternative
approach to resolving that problem. Specifically, HCFA plans to assure that all new applicants
qualify for the benefit. Further, when a complaint or other evidence indicates that an existing
provider-based arrangement does not meet requirements, HCFA plans to reassess the hospital’s
qualifications for the benefit at that time.

While we believe that HCFA’s planned corrective action will significantly strengthen their future
management of the Medicare provider-based reimbursement provision, we are concerned that
some problems described in our report will continue. Specifically, existing non-qualified hospitals
will continue to bill Medicare under the cost advantageous provider-based rules until they are
caught.

Therefore, we continue to believe that it is appropriate to require all hospitals to reapply. We
recognized that there would be administrative costs associated with this requirement. However,
we believe that such costs would be more than off-set by savings accruing from termination of
inappropriate billings to the program.




    Provider-Based Reimbursement to Hospitals    3                                     OEI-04-97-00090
                                            INTRODUCTION

PURPOSE

         To describe Health Care Financing Administration management of provider-based status
         for hospital owned entities.


BACKGROUND

Provider-based status for hospital reimbursement

         Hospitals often purchase a variety of other medical entities such as physician practices,
         nursing facilities and home health agencies. Under Medicare, hospitals can account for
         medical entities they own as either free-standing or as part of the hospital. If a hospital
         accounts for an entity as part of the hospital, it is referred to as a “provider-based”
         arrangement. This is a cost accounting and allocation mechanism which requires Health
         Care Financing Administration (HCFA) approval.

Benefits of provider-based status for the Medicare program and its beneficiaries

         Prior to 2000, HCFA has recognized that provider-based status for hospitals has no
         benefit for Medicare or its beneficiaries. According to HCFA program guidance1,
         provider-based status actually increases the portion of a hospital’s general and
         administrative costs that are supported by Medicare, with no commensurate benefit to
         Medicare or its beneficiaries. The guidance further showed that Medicare payments for
         services in provider-based entities exceed what Medicare would have paid under free-
         standing status.

         Medicare payments are higher largely because of the increased general and administrative
         costs supported by Medicare under provider-based rules. Hospitals can include such costs
         as reimbursable in their Medicare cost reports. Medicare reimburses such hospitals on an
         interim basis and reconciles the cost reports at the end of the reporting period. That
         reimbursement is under Part A of the program. Hospitals may also receive other
         reimbursement under Part B, such as clinical laboratory services.

         Hospitals must exclude from their Medicare cost reports any overhead and administrative
         costs associated with services at their free-standing entities. Such costs associated with its
         free-standing entities must be shown as non-reimbursable on hospital cost reports to
         Medicare.




         1
          Program Memoranda A-96-7 dated August 1, 1996; A-98-15 dated May 1, 1998; and A-99-24 dated May 1, 1999
         (see Appendix A)

Provider-Based Reimbursement to Hospitals                4                                  OEI-04-97-00090
         Likewise, as documented in our September 1999 OIG report2, provider-based status often
         increases coinsurance costs for Medicare beneficiaries.

Prevalence of provider-based status

         Our September 1999 OIG report showed that HCFA and its Medicare contractors have
         little specific knowledge on the extent that provider-based designations have been
         requested and approved. The report showed, however, that hospitals are acquiring
         physician practices in significant numbers. While HCFA program guidance issued in 1996,
         1998, and 1999 did not specify the prevalence, it showed that HCFA receives numerous
         requests from hospitals for provider-based status for their off-site entities.

Approval of provider-based status

         Considering the increased costs and absence of any recognized benefit to Medicare and its
         beneficiaries, HCFA declared in its program guidance that it is critical to designate only
         entities that are unquestionably qualified for provider-based status.

         To this end, hospitals must request provider-based status from HCFA for entities they
         own. Only after receiving HCFA approval may a hospital legitimately claim provider-
         based status and bill Medicare for services provided in their off-site entities. The review
         and determination process calls for a written request, which specifies that an entity meets
         eight criteria published by HCFA in program policy guidance (see Appendix A).

         HCFA’s program guidance does not provide specific and detailed instructions or formats
         for requesting, approving, and disapproving provider-based status. It requires regional
         offices to make provider-based determinations with assistance from intermediaries and
         State licensure agencies. Typically, hospitals should submit requests to their intermediary,
         which remands the requests to HCFA for a determination. The program guidance does
         not specify the level of information needed from hospitals, types of assistance needed from
         intermediaries, or the depth of analysis.

         On April 7, 2000, HCFA issued final regulations3 which could affect the process for
         granting provider-based status for hospital owned entities. The regulations, prompted by
         an upcoming prospective payment system for hospital outpatient services, emphasize the
         fiscal impact of provider-based status on Medicare. They also present regulatory
         definitions for provider-based status, provider-based entities, and other terms. Further,
         the new regulations require a hospital to report its acquisitions to HCFA if the hospital
         wishes to obtain provider-based status for them. Finally, the April regulations revise the
         wording on whether or not Medicare and its beneficiaries benefit from provider-based
         designations. However, our review of the revised wording showed it makes no
         substantive changes that indicate an intended benefit to Medicare and its beneficiaries.
         The regulations appear, however, to enhance HCFA’s control over which hospital owned
         entities receive approval to bill Medicare under the provider-based cost rules.


         2
          Hospital Ownership of Physician Practices (OEI-05-98-00110)
         3
           The regulations were published with a 60-day comment period. They are to be effective July 1, 2000. However, the
specific provisions on provider-based status are not effective until October 10, 2000.

Provider-Based Reimbursement to Hospitals                    5                                    OEI-04-97-00090
METHODOLOGY

         This report describes HCFA’s management and oversight process4 for assuring that only
         qualified hospital owned entities are approved for provider-based status as intended.

         Our scope included HCFA headquarters, all HCFA regional offices, all fiscal
         intermediaries, and all State licensure agencies. We collected and analyzed data from
         February 1998 through January 1999. Where needed, we verified data through September
         1999. At each location we reviewed policies, procedures, and practices for provider-
         based determinations, including HCFA’s eight criteria. (See Appendix A.)

         Our data collection methods included a combination of written surveys, personal
         interviews, and document searches. We used standardized survey questionnaires for
         collecting information on policies, procedures, and practices. We provided our
         questionnaires to HCFA regional offices and intermediaries by electronic mail, and to the
         State agencies by traditional mail. Table 1 shows the response rates to our questionnaire.

                                                        Table 1

                                                    Agency Response


                          Agency Type                                       Responses — Percent of Universe
 HCFA regional offices                                                                  10 of 10 (100%)
 State licensure survey agencies                                                        44 of 52       (85%)
 (50 States, District of Columbia, and Puerto Rico)
 Medicare fiscal intermediaries                                                        39 of 39       (100%)

         In addition to the mail questionnaire, we made on-site inspections at three selected
         regional offices, three State agencies, and five intermediaries. Using our standardized
         questionnaire, we interviewed staff and officials at each site to determine what policies,
         procedures, guidance, and practices were actually followed in approving and disapproving
         provider-based status. At each location, we also reviewed and analyzed documentation on
         criteria, guidance, procedures, and practices for approving provider-based entities.
         Appendix B shows the specific locations of our on-site inspections.

         Further, we analyzed 85 sample case files showing HCFA decisions on provider-based
         status for hospital owned entities. We obtained 70 files from intermediaries and 15 from
         HCFA regional offices. We reviewed the case files to identify what procedures were
         actually used and what resulted from reviewing, approving, and disapproving requests.

         Our selection of the 85 case files was based almost entirely on availability of records. To
         illustrate, we requested 5 sample case files from each of the 39 Medicare intermediaries.


         4
           This report frequently refers to HCFA’s provider-based process. That term encompasses HCFA’s policy,
instructions, protocol, practices, and procedures for reviewing, approving, disapproving, and tracking provider-based status for
hospital owned entities.

Provider-Based Reimbursement to Hospitals                      6                                      OEI-04-97-00090
         To avoid anomalies, we requested files that documented typical determinations of
         provider-based or free-standing status. If each intermediary had provided our requested
         five cases, we would have reviewed a total of 195 cases. However, only 15 intermediaries
         could provide cases for our review. They provided a total of 70 cases. Twelve of those
         intermediaries provided at least the 5 case files we requested.

         We also requested one case file from each HCFA regional office. In response, we
         received 15 cases -- 1 case each from 6 regions, 2 cases from 1 region, 3 cases from 1
         region, and 4 cases from 1 region. One region provided no case files.

         We integrated and compared information and data from HCFA, its intermediaries, States,
         and our case file review. The information and data, however, was scarce, incomplete, and
         often inconsistent. Accordingly, because of our concerns about data reliability we did not
         project the results of our survey and case file analysis. We used dBASE, excel, and
         manual worksheets as tools to help aggregate and analyze the data obtained.

                                            -------------

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Provider-Based Reimbursement to Hospitals         7                            OEI-04-97-00090
                                            FINDINGS

Regional offices do not consistently follow HCFA processes
for approving provider-based status

         According to HCFA program guidance, its regional offices have responsibility for
         determining whether or not hospital owned entities qualify for provider-based status. In
         approving entities for provider-based status, HCFA regional offices are required to obtain
         assistance from Medicare intermediaries and State licensure agencies.

         In practice, however, HCFA regions do not consistently carry out their responsibilities for
         approving provider-based status for hospital owned medical entities. The regions were
         inconsistent in applying criteria for provider-based status, using fiscal intermediary and
         State assistance, and documenting decisions. The inconsistencies occurred not only
         among regions, but within the same region.

         The most common reason HCFA regional, intermediary, and State staffs gave for
         inconsistent application of the review process was that it is not clear. They said their
         respective roles and HCFAs eight criteria are not clear.

The level and extent of review varies considerably within and among HCFA
regions

         Overall, our survey responses, interviews, documents searches, and case analysis showed
         that some HCFA regions perform a detailed, documented analysis in approving provider-
         based status for hospital owned entities. Others perform only a minimal review and do not
         document the basis for their decision.

         Variation within the same region: In 1997, one HCFA region approved a hospital
         request for provider-based status for one of its entities. The approval was given only after
         a thorough review of the request and supporting documentation from the hospital. HCFA
         regional staff reviewed both the operations of the hospital and its entity. The regional
         office required the hospital to submit a detailed request along with supporting
         documentation addressing each of the eight HCFA criteria. For each of the eight criteria,
         the intermediary indicated compliance or noncompliance for provider-based status.
         Further, the hospital’s request for provider-based status was signed by its Certified Public
         Accountant.

         In 1998, this same region approved another hospital request for provider-based status for
         one of its entities. However, in this instance the approval was given after only minimal
         review. The hospital’s request consisted of a simple one and one-third page, unsigned
         memorandum. Generally, the support was an assertion by the hospital that its entity met
         HCFA criteria. For four of the eight criteria, the hospital’s assertion consisted of a single
         sentence statement. No additional support was furnished by the hospital, or requested by
         HCFA regional office staff.

Provider-Based Reimbursement to Hospitals          8                              OEI-04-97-00090
         Variation among regions: In 1998, another HCFA region approved a hospital request
         for provider-based status for seven off-site entities. In this example, the HCFA region
         gave approval after an extensive review of supporting documentation. The hospital
         submitted over 1,000 pages of supporting documentation before obtaining approval.
         Further, the case files show that HCFA and intermediary staff made considerable inquiries
         into the qualifications of the seven entities. To illustrate, the distance of each entity from
         the acquiring hospital was checked thoroughly and plotted on a map to assure compliance
         with HCFA criteria on proximity. Further, HCFA regional staff even required
         documentary evidence that each of the entities was accredited as claimed by the hospital.

         Conversely, another region advised us that there is no requirement for establishing specific
         provider adherence to the provider-based approval process. This region relies mainly on
         self-attestation statements from hospitals as evidence that their entities qualify for
         provider-based status.

         Similarly, an intermediary in another region described the process as primarily the
         hospital’s self-attestation that their entities qualify for the status.

HCFA regions do not always use fiscal intermediaries and State licensure
agencies in approving provider-based status

         The extent to which HCFA regional offices use assistance from Medicare intermediaries
         and State licensure agencies varied. Use of those important sources by HCFA in
         approving or disapproving provider-based status ranges from consistent involvement to
         total exclusion.

         HCFA fiscal intermediaries: As HCFA contractors for Medicare reimbursement, the
         intermediaries are well positioned to contribute important information to HCFA regional
         offices for determining whether hospital owned entities are unquestionably qualified for
         provider-based status. They have routine interaction with hospitals on a wide range of
         Medicare issues that provide a sound understanding of hospital operations, including those
         of off-site entities. This knowledge is frequently reinforced and enhanced as a result of
         reviewing hospital cost reports and conducting routine audits.

         At the time of our inspection, HCFA used 39 fiscal intermediaries to pay Medicare claims
         for Part A medical services. Despite HCFA program memoranda requiring their
         assistance in approving provider-based status for hospital owned entities, 16
         intermediaries reported not being involved in the approval process.

         Additionally, 13 of the remaining 23 intermediaries that did have a role in the approval
         process said that their role was not clear and inconsistently carried out.

         Staff at one intermediary specifically described three different practices by three HCFA
         regions for using the intermediaries to help determine if hospital owned entities qualified
         for provider-based status. The intermediary serves medical providers in each of the three
         different HCFA regions.




Provider-Based Reimbursement to Hospitals          9                              OEI-04-97-00090
         --        The first HCFA regional office typically approved newly licensed entities as free-
                   standing, and instructed the owning hospital to request provider-based status from
                   the intermediary.

         --        The second regional office approved hospital owned entities for provider-based
                   status contingent on the intermediary review and finding.

         --        The third regional office approved hospital owned entities for provider-based
                   status without any consideration of the intermediary.

         State licensure agencies: State licensure agencies routinely review hospitals and various
         other types of medical facilities for licensing and Medicare certification purposes. These
         functions frequently involve on-site inspections of hospitals and entities they own.
         Therefore, State agencies are well positioned to assist HCFA in making provider-based
         determinations.

         However, HCFA regional offices frequently do not use the assistance of States. For
         example, only 20 of the 44 State agencies that responded to our questions said they make
         on-site reviews of hospital owned entities in support of HCFA determinations. Of those
         agencies, 16 said they made recommendations to HCFA or its intermediaries for approval
         or disapproval for provider-based status. Staff in 3 State agencies that do not make site
         visits also said they make a recommendation, but it is based on their general knowledge of
         the hospitals. One of the 19 States that make recommendations told us they recently
         discontinued their involvement in the approval process because HCFA told them to do so.

         Of the 44 State agencies, 15 said their responsibilities in the approval process is unclear.
         Many of the remaining 29 States did not provide clear information on their role.

Provider-based decisions are not always documented

         The HCFA regions and intermediaries often do not document their decisions for or against

         provider-based status, and the basis for those decisions. At least one region had issued

         guidance to intermediaries requiring them to document provider-based decisions. That

         region required intermediaries to document, at a minimum, that they had applied each of

         HCFAs eight criteria in determining provider-based status for hospital owned entities. 

         The region allowed flexibility to do so in a checklist, summary, or other method. 

         However, many of the files we reviewed contained no such documentation.


         To illustrate, our analysis showed that of the 85 case files we reviewed, HCFA regions

         determined that 55 entities (65 percent) were qualified for provider-based status, and 20

         (23 percent) were free-standing. Files for five cases contained inadequate documentation

         to determine if HCFA had approved or disapproved the application. The remaining five

         cases were incorrectly provided to us. They were for provider enrollment and change of

         ownership rather than determinations of provider-based status, as we had requested.


         Of the 75 case files that showed the approval or disapproval decision, 26 contained clear

         documentation for the basis of the decisions. About half of the 26 decisions were for

         provider-based status and half were for free-standing status. The files for 15 of the 75



Provider-Based Reimbursement to Hospitals          10                             OEI-04-97-00090
         determinations contained only minimal documentation, but we could ascertain that a
         decision had been made. On the other hand, the files for the remaining 34 determinations
         did not contain supporting documentation for the decision. Documentation was either
         missing altogether from the case files, or insufficient to determine how the decisions were
         reached. HCFA regional offices, however, had approved a clear majority (28) of those 34
         cases for provider-based status.

HCFA data systems are inadequate for managing the
provider-based review process

         Neither HCFA headquarters nor regional offices could furnish reliable data on provider-
         based determinations. For example, from the data HCFA provided, we could not
         ascertain the number of

                   --        hospitals requesting provider-based status,

                   --        hospitals that had been approved for provider-based status,

                   --        hospitals that had been rejected or disapproved for provider-based status,
                             and

                   --        hospitals that simply billed Medicare under the provider-based rules
                             without notifying HCFA.

         Timely availability of such basic data is essential for sound program management.
         Without it, HCFA is unable to provide needed program oversight to assure appropriate
         costs and impacts for the Medicare Trust Funds and beneficiaries. Further, without basic
         data showing approvals of hospitals for provider-based status, HCFA’s fiscal
         intermediaries can not assure that off-site entities are properly accounted for in hospital
         cost reports. Finally, without such basic management data, HCFA is highly vulnerable to
         improper Medicare Trust Fund reimbursements.

HCFA can not identify hospitals that have requested and been approved for
provider-based status

         HCFA program guidance does not fix responsibility on which organization (HCFA central

         office, its regions, its fiscal intermediaries, or State licensure agencies) should maintain

         records on provider-based determinations. Our inspection showed that none of the

         organizations maintained complete and accurate records. Therefore, HCFA does not have

         such basic data as which hospitals have requested and been approved for provider-based

         status. 

         First, HCFA headquarters does not maintain a data base or other record-keeping system

         showing which hospitals have properly applied for and received approval for provider-

         based status for entities they own. 


         Second, data bases at HCFA regional offices either do not exist, or they are clearly

         incomplete. For example, of the 10 HCFA regional offices, only 2 had data bases that


Provider-Based Reimbursement to Hospitals             11                            OEI-04-97-00090
         listed hospitals which had requested provider-based status for off-site entities. Another
         regional office could only manually retrieve copies of some of their provider-based
         determination notices. The staff in this region told us they were unable to identify all
         provider-based determinations.

         Third, such data is not consistently maintained by HCFA fiscal intermediaries. Only 11 of
         the 39 intermediaries told us that they have a data base or other record-keeping system
         from which provider-based entities can be identified. Typically, the other intermediaries
         relied on manual searches of their files, or less reliable methods such as the knowledge or
         recollections of various staff persons. For example, we requested 5 case files for CY 1997
         from each of the 39 intermediaries. Out of a possible 195 files, we received 70 from 15
         intermediaries. Generally, the missing cases were not maintained or were not accounted
         for by intermediaries. For example, eight intermediaries could furnish no case files,
         although they told us that they had assisted HCFA with 16 determinations. Another 5
         intermediaries furnished 11 files, but said they actually assisted HCFA in 13 decisions.

         Finally, State licensure agencies do not maintain data on hospitals that have requested or
         obtained provider-based status for their off-site entities. Of the 44 State agencies that
         responded to our survey, only 4 told us they have a data base from which they can retrieve
         information on provider-based status. Of those four agencies, none could provide us with
         case-specific data. For example, we could not always determine, from the State provided
         data, if hospital owned entities had been approved for provider-based status. In instances
         where approval was clear, we could not ascertain when it occurred.

HCFA efforts to identify hospitals that bill for provider-based reimbursement for
off-site entities have generally been unsuccessful

         Staff in 7 of the 10 HCFA regional offices said they had tried several ways to identify
         hospitals that bill for provider-based entities. Four of the seven had specifically directed
         intermediaries to identify hospitals that are billing for provider-based reimbursements for
         off-site entities. They said that they had been generally unsuccessful.

         Staff in 3 of the 10 regions gave various reasons for not attempting to identify hospitals
         that were billing for provider-based reimbursement for their entities. For example, two
         regions said HCFA had not mandated or funded initiatives for this purpose and another
         said they had no consistent way of collecting such information.

         Likewise, HCFA intermediaries have been generally unsuccessful in identifying hospitals
         that are claiming provider-based status for their entities. Of the 39 intermediaries, only 18
         said they had taken specific action to determine which hospitals are claiming provider-
         based status for their off-site entities rather than free-standing status. However, they
         reported generally unsuccessful results. For example, some of the intermediaries had
         surveyed hospitals in their jurisdiction, but only a few responded. Of those that
         responded, their responses were often nonspecific. Some intermediaries sent inspection
         teams to the hospitals. However, even these intermediaries could not provide a complete
         listing of hospitals in their jurisdictions that were claiming provider-based reimbursement
         for their off-site entities.




Provider-Based Reimbursement to Hospitals         12                              OEI-04-97-00090
Hospitals often bill for provider-based Medicare
reimbursement without approval

         Overall, the system for approving provider-based arrangements for hospital owned entities
         does not work very well. As a result, Medicare incurs excessive costs. Because data
         systems were incomplete or nonexistent, we were unable to quantify the excessive costs.
         However, data from certain regions and intermediaries suggest that those costs could be
         substantial.

         Hospitals are required to obtain HCFA approval before billing for Medicare
         reimbursement under the provider-based accounting rules. However, in practice, many
         HCFA and intermediary staff stated that hospitals do not obtain approval from HCFA.
         They said hospitals simply assume provider-based status for their entities and bill Medicare
         accordingly. Such billing is inappropriate. In some instances, HCFA intermediaries do
         not detect that the hospitals are billing Medicare under the higher cost provider-based
         rules until after several years have elapsed. Further, when improper payments are made
         under the provider-based rules, intermediaries reported to us that they typically make only
         prospective corrections.

The number of improperly designated medical entities is unknown, but may be
substantial

         Numerous intermediary staff told us that hospitals frequently bill Medicare under the
         provider-based rules without HCFA approval. Intermediary staff also said that, in many
         such instances, the hospital owned entities do not meet HCFA criteria. Neither HCFA nor
         its intermediaries had data or information showing the extent of this practice nationally.
         However, the examples below indicate that the practice may be extensive.

         Data at one intermediary showed that 213 hospital owned entities claimed provider-based
         status during 1997 and early 1998. The hospitals had properly requested provider-based
         status for only 5 of those. The hospitals had, without HCFA approval, assumed provider-
         based status for the remaining 208 entities and billed Medicare under the provider-based
         rules.

         After learning about the 208 designations through its hospital audits, the intermediary and
         HCFA staff reviewed and approved 185 of them for provider-based status. The HCFA
         regional office disapproved the remaining 28. Therefore, 14 percent of the entities for
         which hospitals had improperly assumed provider-based status were unqualified for
         Medicare reimbursement under the provider-based rules.

         Likewise, data provided by another intermediary showed that 58 entities claimed provider-
         based status during 1997 and early 1998. Only 2 of the 58 had been properly requested in
         advance. The remaining 56 were assumed by hospitals without approval. Subsequently,
         HCFA disapproved 45 of the 56 entities for which hospitals had improperly assumed
         provider-based status. Therefore, 80 percent of the entities for which hospitals merely
         assumed provider-based status in this State were unqualified for reimbursement under the
         provider-based rules.

Provider-Based Reimbursement to Hospitals        13                             OEI-04-97-00090
         Additionally, after learning of these improperly assumed designations, the intermediary
         referred 6 of the 56 entities for Medicare program integrity investigations. The referrals
         were based on failure to meet an essential Medicare program requirement for off-site
         entities. As of September 1999, the intermediary was in the process of determining
         overpayments made in connection with those cases.

         In another HCFA region, a fiscal intermediary initiated a comprehensive effort to identify
         hospital owned entities that billed Medicare under the provider-based rules. According to
         intermediary staff, this review disclosed numerous hospitals that were reimbursed under
         the provider-based rules, but should have been reimbursed under the less costly free-
         standing rules. The intermediary could not furnish specific numbers.

         A fiscal intermediary in another region conducted a similar review of provider-based
         entities owned by 23 hospitals in one State. That intermediary found one entity that was
         receiving Medicare reimbursement under the provider-based rules, but should have been
         receiving it under the free-standing rules.

Improperly designated medical entities and the resulting incorrect Medicare
payments may go undetected for years

         When a hospital improperly assumes provider-based status for an unqualified entity, it may
         collect improper Medicare payments until the intermediary learns of, and corrects the
         improper designation. The intermediary typically learns of such improperly designated
         entities after the fact through its audit process.

         In some instances, the audit process may not disclose improperly designated provider-
         based status and improper billings for hospital owned entities for years. For example, our
         review of case files for 50 hospital owned entities from one intermediary showed that at
         least 4 had been improperly billing Medicare under the financially advantageous provider-
         based rules for between 4 and 6 years.

The cost of improperly designated provider-based entities is unknown, but could
be substantial

         Because of the absence of complete, reliable records, we did not determine the extent of
         improper payments for unqualified entities. HCFA, its intermediaries, and States had no
         reliable data for comparing the costs of operating hospital owned entities under provider-
         based rules versus operating them under the rules for free-standing entities.

         However, one HCFA region provided an estimate by one hospital that gives an indication
         of the financially advantageous reimbursement under the provider-based rules as compared
         to free-standing rules.

         In this example, HCFA determined that a hospital owned medical entity was actually a
         free-standing entity rather than a provider-based entity. Therefore, the hospital was not
         allowed to claim Medicare reimbursement under the provider-based rules. Instead, it had
         to claim reimbursement under the free-standing rules. The hospital appealed HCFA’s
         decision. In its appeal, the hospital estimated that HCFA’s denial had cost it $440,000
         over an 8-month period. That estimate was the difference between Medicare Part B

Provider-Based Reimbursement to Hospitals         14                            OEI-04-97-00090
         reimbursement to the entity as a free-standing entity and what Medicare would have
         reimbursed had the entity been classified under the provider-based accounting rules.

         To the extent that the estimate by that hospital is reliable, the excessive cost for numerous
         unqualified hospital owned entities billing under the provider-based rules would be
         considerable. As shown above, hospitals often improperly bill Medicare for provider-
         based status, and incorrect payments may be undetected for years.

Retroactive adjustments of improper payments for provider-based status are
typically not made

         Staff at all HCFA regional offices, most intermediaries, and most State licensure agencies
         told us that controls are needed to prevent hospitals from improperly billing Medicare for
         entities that do not qualify for provider-based status. As shown earlier, hospitals often
         improperly assume provider-based status for their entities and bill Medicare under the
         more costly provider-based rules. HCFA does not have authority to impose penalties on
         such hospitals. Further, when HCFA learns of such improper payments, it typically does
         not retroactively adjust Medicare reimbursements. As a result, hospitals have little or no
         incentive to assure that their entities are unquestionably qualified for the financially
         advantageous reimbursements under provider-based status.

         The majority of Medicare intermediaries typically do not make retroactive adjustments of
         Medicare payments when they find that a hospital has been improperly reimbursed under
         the provider-based rules. Those improper payments occur because the hospital should
         have been reimbursed under the less costly free-standing rules. We asked the 39
         intermediaries if they make retroactive adjustments when they discover through audits or
         other means that a hospital had been improperly reimbursed. Of the 39 intermediaries, 30
         answered our question. Of those 30 intermediaries, 21 said they do not make retroactive
         adjustments, and only 9 said they make such adjustments.

         Data on provider-based status was incomplete and our attempts to ascertain the impact of
         not retroactively adjusting for improper Medicare payments was unsuccessful. However,
         the impact could be significant based on anecdotal examples provided by a few of the 21
         intermediaries that clearly stated they do not retroactively adjustment payments. To
         illustrate, 3 of the 21 intermediaries told us they did not retroactively adjust Medicare
         payments to numerous hospitals for 68 hospital owned entities. Through the audit
         process, the intermediaries learned that the hospitals had billed under the provider-based
         rules for the 68 entities, but should have billed under the free-standing rules.

         Partly, this problem stems from a lack of consistent understanding among HCFA regions
         and intermediaries on what HCFA program guidance is relative to retroactive adjustments.
         The following examples illustrate the widely divergent views on HCFA program guidance
         relative to retroactive adjustments of payments for hospital owned entities. Three
         intermediaries interpreted HCFA guidance to mean no adjustment even though the
         hospitals had billed Medicare under the provider-based rules without HCFA approval.
         Similarly, one HCFA regional office staff said they were not familiar with authority to
         make a retroactive adjustment.




Provider-Based Reimbursement to Hospitals         15                             OEI-04-97-00090
         Conversely, another HCFA regional office interpreted the guidance to allow a retroactive
         adjustment unless HCFA had previously made an incorrect determination of provider-
         based status. If HCFA had made the improper determination, the region felt it could not
         make a retroactive adjustment. This interpretation precludes retroactive adjusted
         payments when a hospital improperly assumes provider-based status. As shown earlier in
         this report, hospitals often do not ask HCFA for a determination. They simply assume
         provider-based status and bill Medicare accordingly.

         In its new regulations which could revise the provider-based rules, HCFA has included
         language on retroactive adjustments or recovery of overpayments. However, staff at
         several intermediaries said that reclassifying costs and correcting cost reports, as a means
         of adjusting for improper payments, was an over-simplification of the problem. Those
         intermediaries and many others stated that the more significant problems are inadequate
         controls for assuring consistent, accurate determinations of provider-based status, and
         inadequate safeguards to prevent hospitals from improperly billing Medicare for
         unqualified off-site entities.




Provider-Based Reimbursement to Hospitals         16                             OEI-04-97-00090
              CONCLUSION AND RECOMMENDATIONS

         HCFA management of the process for granting provider-based status gives little or
         no assurance that only qualified hospital owned entities are approved. The process
         often results in hospitals improperly billing Medicare for off-site entities that are not
         qualified for reimbursement under the higher cost provider-based rules. Further, when
         HCFA identifies improper Medicare reimbursements for unqualified hospital owned
         entities, it typically does not make retroactive adjustments. The extent of improperly
         designated provider-based entities and the resulting improper Medicare reimbursements is
         not readily determinable because of inadequate data systems. However, opinions from
         HCFA, fiscal intermediary, and State staffs, plus the limited data they could provide
         suggested that improper Medicare reimbursements are substantial.

         In establishing procedures for granting provider-based status, HCFA recognized that the
         costs to both Medicare and its beneficiaries would be greater, with no commensurate
         benefits. However, hospitals benefit from the provider-based arrangement because they
         are allowed to shift overhead costs to their provider-based entities and receive higher
         Medicare reimbursement. For these reasons, in establishing procedures for granting
         provider-based status, HCFA stressed the importance of assuring that only unquestionably
         qualified hospital entities are approved.

         Implementing needed systems for properly managing the provider-based provision would
         likely require considerable resource investments by HCFA, its fiscal intermediaries, and
         States. Considering this possibility, the recognized increased costs of the provider-based
         status for qualified and unqualified hospitals, and the absence of any commensurate benefit
         for Medicare and its beneficiaries, we question the merits of any additional expenditures
         on provider-based status for hospital owned entities.

         Because of such concerns, we recommended in our September 1999 OIG report5 that
         HCFA eliminate provider-based status as an option for physician practices. Our current
         inspection showed that the same concerns are applicable for all types of hospital owned
         entities, including physician practices, home health agencies, nursing homes, and others.
         Therefore, expanding on our prior recommendation,

                   we recommend that HCFA eliminate provider-based status as an accounting
                   option for all types of hospital owned entities.

         If HCFA chooses to continue use of the provider-based option for hospital owned entities,
         it should

         <         Impose severe and substantial penalties, as recommended in our prior report,
                   when hospitals bill Medicare for unqualified medical entities they own.
                   Penalties should provide an incentive for hospitals to request HCFA approval, as



         5
          Hospital Ownership of Physician Practices (OEI-05-98-00110)


Provider-Based Reimbursement to Hospitals                 17                    OEI-04-97-00090
                   required, before billing Medicare under provider-based rules. Penalties would
                   reduce the incentive for hospitals to bill Medicare for unqualified entities.

         <	        Revise and clarify its program policy and procedures. HCFA guidance should
                   better define processes for requesting, approving, tracking, and evaluating
                   provider-based status. Procedural guidance is needed to assure that HCFA
                   regions, fiscal intermediaries, States, and hospitals understand eligibility criteria for
                   provider-based status, and their respective roles in the approval process. Further,
                   such clarification is needed to assure consistent application of eligibility criteria by
                   HCFA regions, fiscal intermediaries, and States. The need for a consistent process
                   related to recovery or non-recovery of reimbursement improperly claimed by
                   hospitals is yet another reason clarification of policy and procedures would be
                   beneficial.

         <	        Develop reliable data systems for program management. At a minimum, data
                   systems should identify hospitals that request provider-based status, hospitals that
                   are approved, and those that simply assume the status without approval and bill
                   Medicare inappropriately. Further, HCFA needs such basic data to evaluate the
                   cost of provider-based arrangements versus the cost for free-standing medical
                   entities.

         <	        Require that all hospitals claiming provider-based status reapply for that
                   status. Reapplication could be done on a one-time or periodic basis. It would
                   give HCFA valuable information on which hospitals are being reimbursed under
                   the financially advantageous provider-based rules. It would also allow HCFA an
                   opportunity to assure that only unquestionably qualified hospitals are approved.
                   Further, if HCFA establishes serious intent to control approval based on its eight
                   criteria, some unqualified hospitals might not reapply. Finally, this option would
                   give HCFA an opportunity to establish reliable baseline data for program
                   management.

AGENCY COMMENTS

The Health Care Financing Administration commented on our draft report. The full text of those
comments are shown in appendix C.

In brief, HCFA did not agree with the recommendation to eliminate the provider-based program.
Instead, HCFA supported our alternative recommendation to establish reliable systems to improve
its management of the provider-based program. To that end, HCFA has initiated various actions,
including revising regulations and procedures, implementing management data and control
systems, and providing training for staff responsible for program administration and control.

The HCFA expressed concern about the administrative burden of full implementation of our
recommendation to require all hospitals claiming provider-based status to reapply so that HCFA
could assure they qualified for the benefit. Instead, HCFA plans a less burdensome, alternative
approach to resolving that problem. Specifically, HCFA plans to assure that all new applicants
qualify for the benefit. Further, when a complaint or other evidence indicates that an existing




Provider-Based Reimbursement to Hospitals             18                              OEI-04-97-00090
provider-based arrangement does not meet requirements, HCFA plans to reassess the hospital’s
qualifications for the benefit at that time.

While we believe that HCFA’s planned corrective action will significantly strengthen their future
management of the Medicare provider-based reimbursement provision, we are concerned that
some problems described in our report will continue. Specifically, existing non-qualified hospitals
will continue to bill Medicare under the cost advantageous provider-based rules until they are
caught.

Therefore, we continue to believe that it is appropriate to require all hospitals to reapply. We
recognized that there would be administrative costs associated with this requirement. However,
we believe that such costs would be more than off-set by savings accruing from termination of
inappropriate billings to the program.




Provider-Based Reimbursement to Hospitals       19                            OEI-04-97-00090
                                                                             APPENDIX A


                                        Provider-Based Criteria


Program Memorandum (Intermediaries), HCFA Pub. 60A, Transmittal No. A-99-24
May 1999

This Program Memorandum re-issues Program Memorandum A-98-15, dated May 1998.
The only change is the discard date and contact person; all other material remains the
same.

This Program Memorandum re-issues Program Memorandum A-96-7.

SUBJECT: Policy Clarification: Provider-Based Designation

PURPOSE:

The purpose of this program memorandum (PM) is to consolidate and clarify the Health Care
Financing Administration’s (HCFA’s) policy regarding provider-based and free-standing
designation decisions. The various elements of this policy have been issued previously in
regulations, program manuals, and letters to HCFA regional offices (ROs) or providers. This
policy applies to all such designation decisions regarding any provider of services under Medicare,
including physician’s practices or clinics that state they are part of a provider.

BACKGROUND:

The term or designation “provider-based” is an outgrowth of the Medicare cost reimbursement
system. The main purpose of the provider or facility-based designation is to accommodate the
appropriate accounting and allocation of costs where there is more than one type of provider
activity taking place within the same facility/organization, e.g., a hospital-based skilled nursing
facility. This cost allocation and cost reimbursement more often than not results in Medicare
program payments that exceed what would have been paid for if the same services were rendered
by a free-standing entity.

With the growth of integrated delivery systems, HCFA has received numerous requests from
entities requesting provider-based status. These requests, if approved, increase the portion of the
facility’s general and administrative costs that are supported by the Medicare program with no
commensurate benefit to Medicare and its beneficiaries. Therefore, it is critical that HCFA
designate only those entities that are unquestionably qualified as provider-based.

For example, some hospitals are purchasing physicians’ clinics and multiple clinics in areas far
from the licensed hospital and designating the clinics as “outpatient departments” of the hospital.
If Medicare were to approve such designation as an “outpatient department” the hospital would
then be allowed to increase Medicare payments by shifting overhead costs to the “outpatient
department” and by increasing payments for indirect medical education. In addition to the




Provider-Based Reimbursement to Hospitals         20                           OEI-04-97-00090
                                                                               APPENDIX A


                                        Provider-Based Criteria


payment impact, the Medicare coverage of “incident-to” services would also be affected if a
physician’s office is redesignated as a hospital outpatient department.

Medicare beneficiaries are also subject to an increased financial liability. In the example above of a
hospital acquired physician practice, the beneficiary pays the usual deductible and co-insurance for
physician services which are capped by the physician fee schedule. He is also responsible for a
second deductible and co-insurance for a “clinic visit” or “facility fee” to the hospital.
These charges are not subject to the Medicare allowable charge or limiting charge restrictions of a
physician’s office.

Moreover, it should be noted that it is the intent of existing statutory and regulatory criteria for
Medicare to operate as a prudent purchaser of services that enhance the care of beneficiaries.
Medicare must comply with Congressional intent as reflected in §1861(v)(1)(A) of the Social
Security Act to pay only for those costs that are necessary for the efficient delivery of needed
health services. The statute at §1861(v)(1)(A) also provides general and specific criteria for
developing payment rules to carry out the basic intent of the law as well as provisions when
aggregate reimbursement produced by existing methodologies proves to be inadequate or
excessive.

POLICY STATEMENT:

It is HCFA’s policy that the following applicable requirements must be met before an entity can be
designated as part of a provider for payment purposes:

1. The entity is physically located in close proximity of the provider where it is based, and both
facilities serve the same patient population (e.g. from the same service, or catchment, area);

2. The entity is an integral and subordinate part of the provider where it is based, and as such, is
operated with other departments of that provider under common licensure (except in situations
where the State separately licenses the provider-based entity);

3. The entity is included under the accreditation of the provider where it is based (if the provider
is accredited by a national accrediting body), and the accrediting body recognizes the entity as
part of the provider;

4. The entity is operated under common ownership and control (i.e., common governance) by the
provider where it is based, as evidenced by the following:

!	       The entity is subject to common bylaws and operating decisions of the governing body of
         the provider where it is based;




Provider-Based Reimbursement to Hospitals         21                              OEI-04-97-00090
                                                                               APPENDIX A


                                        Provider-Based Criteria


!	       The provider has final responsibility for administrative decisions, final approval for
         personnel actions, and final approval for medical staff appointments in the provider-based
         entity; and

!	       The entity functions as a department of the provider where it is based with significant
         common resource usage of buildings, equipment and service personnel on a daily basis.

5. The entity director is under the direct day-to-day supervision of the provider where it is
located, as evidenced by the following:

!	       The entity director or individual responsible for day-to-day operations at the entity
         maintains a daily reporting relationship and is accountable to the Chief Executive Officer
         of the provider and reports through that individual to the governing body of the provider
         where the entity is based; and

!	       Administrative functions of the entity, e.g., records, billing, laundry, housekeeping and
         purchasing, are integrated with those of the provider where the entity is based.

6. Clinical services of the entity and the provider where it is located are integrated as evidenced by
the following:

!	       Professional staff of the provider-based entity have clinical privileges in the provider where
         it is based;

!	       The medical director of the entity (if the entity has a medical director) maintains a
         day-to-day reporting relationship to the Chief Medical Officer or other similar official of
         the provider where it is based;

!	       All medical staff committees or other professional committees at the provider where the
         entity is based are responsible for all medical activities in the provider-based entity;

!	       Medical records for patients treated in the provider-based entity are integrated into the
         unified records system of the provider where the entity is based;

!	       Patients treated at the provider-based entity are considered patients of the provider and
         have full access to all provider services; and

!	       Patient services provided in the entity are integrated into corresponding inpatient and/or
         outpatient services, as appropriate, by the provider where it is based.




Provider-Based Reimbursement to Hospitals         22                             OEI-04-97-00090
                                                                               APPENDIX A


                                        Provider-Based Criteria


7. The entity is held out to the public as part of the provider where it is based (e.g., patients know
they are entering the provider and will be billed accordingly);

8. The entity and the provider where it is based are financially integrated as evidenced by the
following:

!	       The entity and the provider where it is based have an agreement for the sharing of income
         and expenses; and

!	       The entity reports its cost in the cost report of the provider where it is based using the
         same accounting system for the same cost reporting period as the provider where it is
         based.



DETERMINATIONS:

Determinations concerning whether an entity is provider-based (e.g., common licensure,
governance, professional supervision criteria, reimbursement and accounting information) will be
made by the appropriate HCFA RO components, i.e., the RO Division of Health Standards and
Quality and the RO Division of Medicare with the assistance of the State survey agencies
and the fiscal intermediary.

Please note that the issuance of this clarifying instruction may result in identification of previous
provider-based decisions that would not be in accordance with the criteria described in this PM.
In those instances, the ROs are not precluded from taking a corrective action on such erroneous
designation/determinations. However, any corrective action is to be applied prospectively.

This Program Memorandum may be discarded May 31, 2000.

For further information, please contact George Morey at (410) 786-4653.




Provider-Based Reimbursement to Hospitals          23                             OEI-04-97-00090
                                                                            APPENDIX B


                                Locations of On-Site Inspections



         We surveyed all HCFA regional offices, State agencies, and intermediaries. We also
         selected a limited sample for on-site inspections. We selected sites on the basis of
         accessibility. The table below identifies those selected.

                                            On-Site Inspections



                  Site                        HCFA Region                     Location
 HCFA Regional Office                               IV             Atlanta, Georgia
 HCFA Regional Office                              VII             Kansas City, Missouri
 HCFA Regional Office                               X              Seattle, Washington
 Medicare Intermediary                              III            Baltimore, Maryland
 Medicare Intermediary                              III            Richmond, Virginia
 Medicare Intermediary                              IV             Birmingham, Alabama
 Medicare Intermediary                              IV             Columbus, Georgia
 Medicare Intermediary                              IV             Durham, North Carolina
 State Licensure Agency                             III            Baltimore, Maryland
 State Licensure Agency                             III            Richmond, Virginia
 State Licensure Agency                             IV             Raleigh, North Carolina




Provider-Based Reimbursement to Hospitals           24                         OEI-04-97-00090
                                                               APPENDIX C


                                            Agency Comments





Provider-Based Reimbursement to Hospitals          25           OEI-04-97-00090
Provider-Based Reimbursement to Hospitals   26   OEI-04-97-00090
Provider-Based Reimbursement to Hospitals   27   OEI-04-97-00090
Provider-Based Reimbursement to Hospitals   28   OEI-04-97-00090
Provider-Based Reimbursement to Hospitals   29   OEI-04-97-00090
Provider-Based Reimbursement to Hospitals   30   OEI-04-97-00090
